No.

IN THE SUPREME COURT OF THE UNITED STATES

■supreme Court. U.ST
FILED

SEP -V 2020
OFFICE OF THE n fpu-

Wayne Boucher ---- PETITIONER
vs
Deanne Lyons --- RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
New Hampshire Supreme Court
PETTION FOR WRIT OF CERTIORARI
Wayne Boucher
65 grove ave
Manchester, NH 03109
603-566-7505

4 Of 52

QUESTIONS PRESENTED
14.

What is best for E.B..

15.

Why the courts refuse to hear the wishes of E.B. a 13 year old child that is fully
aware of the situation and knows what she wants and has made it clear that she
doesn't want to live with her mother.

16.

Why the courts refused to do anything about the abuse and constant threats of
physical violence from the mother, including trying to forcibly drug E.B. to which
we spent the night at the hospital because of it.

17.

Why the courts refuse to do anything about Deanne's drinking problem,
Deanne gets drunk in front of E.B. and E.B. tells me about it and sends pictures
of the alcohol and the courts refused to look at the evidence.

18.

Why Judge Erin McIntyre refused to accept evidence from E.B.'s journal and
other written statements from E.B. stating the way she is treated by her mother.

19.

Why Judge Erin McIntyre refused to accept evidence from E.B.'s counselor
and why the GAL Lucinda Hopkins didn't include the findings in the counselor's
report as she should have.

20.

Why during the trial Judge Erin McIntyre refuse to accept evidence of the
mother's harassment of myself and the violations of the court orders and that her
step father met me at E.B.'s doctor's appointment with a gun, E.B. can verify that.

21.

Why the courts refuse to reply to motions submitted from me the father Wayne
Boucher yet they respond to the mother's Deanne Lyons.

22.

The fairness of the trial and why the mother presented no evidence for any of
her accusations that I was threatening her at every meeting and when I offered
videos of the meetings judge McIntyre refused to accept the evidence and told
me she finds it disturbing that I video every meet.

23.

Why the GAL Lucinda Hopkins didn't do a complete report and left out all the
negative things that the mother Deanne Lyons was doing and only included
things that made me look bad and even told me I was going to be arrested
8 of 52

because of what Deanne saying about me.
24.

Why the court system in New Hampshire favors the mother and without
hesitation gives full custody of children to the mother. This is not 1950, fathers
love their children too and should be even unless the other parent can prove
abuse.

25.

Why I was not allowed to speak at all at the temporary hearing, after the
mother made a number of false accusations and it was my time to speak I was
told to shut up.

26.

I appealed to the New Hampshire Supreme court and they denied my appeal
quoting a case as precedence where a father raped and molested his daughter
and threaten to kill her if she said anything. Never did anyone ever accuse me of
molesting my child, when I asked for clarification as to how this relates to my
case the judge responded with "the father was acquitted".

LIST OF PARTIES
Wayne Boucher
65 Grove Ave
Manchester, NH 03109
603-566-7505
baloo@fuzzyphoto.com
Deanne Lyons
5 Laraway Court #2B
Derry, NH 03030
603-738-2035
deelightyou@hotmail.com

9 of 52

Table of Contents
QUESTIONS PRESENTED............................................................
LIST OF PARTIES.........................................................................
INDEX TO APPENDICES..............................................................
WHY SUPREME COURT JURISTION SHOULD BE INVOLKED...
QUESTIONS PRESENTED.............................................................
LIST OF PARTIES..........................................................................
INTRODUCTION...........................................................................
THE SEPARATION........................................................................
MOTHER'S ATTEMPT TO ALIENATE E.B. FROM THE FATHER.
THE COURTS BIAS TOWARD THE MOTHER..............................
REASONS FOR GRANTING THE CASE........................................
CONCLUSION...............................................................................
CERTIFICATION...........................................................................

1
.2
5

6
S

9
10

12
14
15
17
18
19

INDEX TO APPENDICES
Appendix A

Trail Results 9-18-19

Appendix B

Manchester Family Court Denying appeal

Appendix C

Rule 7 Notice of Mandatory Appeal

Appendix D

New Hampshire Supreme Court Denying appeal April 2, 2020

Appendix E

New Hampshire Supreme Court Denying appeal April 23, 2020

5 Of 52

INTRODUCTION
The reason for requesting a hearing is because my child E.B. is suffering a life
with an abusive mother and she should have a say in the courts to what she wants.
E.B. is 12 years old and is well aware of everything going on like most children her age
are. E.B. was 10 years old when the separation happened and like most children her
age they know and understand what is happening but the courts refuse to let them have
any say in their life. This leads to many children committing suicide because they can't
deal with the situation and no one will listen to them and this needs to change.
E.B. has told her school counselor, a professional counselor, teachers, the
school principal, the GAL, friends and family but no one will listen because the mother
has everyone convinced that I am telling E.B. to say that she wants to live with me. The
courts in New Hampshire are incredibly unfair to the fathers and give full custody to the
mother no matter what the situation, this needs to change too.
I provided everything for my family and Deanne provided nothing even when I
was out of work for a year and 4 months behind on the mortgage Deanne still wouldn't
even buy food for the family. Deanne wants to live the life of a 21 year old and go out
drinking every night and that's what she did for the last few years we were together and
she still does now even when she has E.B., E.B. has told me Her mother gets drunk in
front of her a lot. She decided that she didn't want to be part of the family, not me, but
the courts don't care what the reason for the separation they just assume the child is
better off with the mother and the mother gets everything, that is what happened 70
years ago and needs to change. If a couple is to separate then unless there is proof of
abuse, not just someone claiming the other person is bad but proof, the separation
should be fair and the custody should be 50/50 from the start. The child if old enough, 8
years or older should have some say and based on how the GAL has manipulated my
daughters input it should be video taped so both sides have a record of the child's input.
Trials need to be fair, Deanne knew about this, saved money and hired a
lawyer and planned ahead to put me into debt to the point that I couldn't afford a lawyer
10 of 52

and the system is set up so without a lawyer you have little to no chance of winning.
The laws and rules need to be written so a person that cannot afford a lawyer can still
defend his or her self. I kept trying to file motions and because I didn't know the rules
and the rules are written so a person without a law degree can't understand them the
paperwork would be returned with no reason why other than it did not comply with the
court rules. This problem needs to be fixed so that both parents have a fair chance.
The reason for requesting a hearing is to give E.B. the life she wants, she
maybe only 12 but she knows what she wants and she knows who she wants to live
with and why and she needs to be heard. I know the US Supreme Court has lots of
other important issues to deal with but E.B. is important too.

11 of 52

THE SEPARATION
On April 23, 2018 Deanne Lyons told me Wayne Boucher that she found
another place to live and that I would never see my daughter E.B. again.

I asked

Deanne where E.B. was and she refused to answer me so ! said I am calling the police
and my brother Glen said to hold on and convinced Deanne that she has no right to
keep me from my child and Deanne reluctantly agreed to have E.B. brought home.
Deanne at no point prior to this day did she ever say anything about not being
happy and wanting to leave. She never told E.B. that she was leaving, she just dropped
E.B. off at her mother's house saying nothing.
One year prior to this day Deanne Lyons talked me into buying a huge camper
and a truck to pull it saying that she really wanted a camper and was graduating from
college and would pay for the camper and the truck. This was an intentional lie to put
me in debt knowing she was going to leave me.
To this day Deanne Lyons has never told me or E.B. why she wanted leave,
the last 9 months while we were still together Deanne was never around me or E.B. and
was either working all the time or out drinking with her friends. E.B. would not see her
mother for weeks at a time and would often cry because she wanted her mother around
but Deanne refused to spend time with E.B. and even now Deanne most days drops
E.B. off at her cousins home so she can work or go drinking with friends.
Deanne has a drinking problem and E.B. has told me that her mother will have
friends over and get drunk in front of her. Deanne is abusive to E.B. and threatens to
beat her often and has dumped E.B. at the police station or over to her cousins or calls
me and tells me I have to come get E.B. because Deanne has anger issues like most of
her family and rather than deal with E.B. in a civil manner she has someone else deal
with E.B.. Deanne is currently taking medication for her mental issues like depression.
E.B. is one of the nicest and well behaved child you'll ever meet but Deanne
treats her like a little slave and if E.B. doesn't do what Deanne asks that minute Deanne
starts yelling at E.B. to the point that E.B. shuts down and then Deanne calls me and
12 of 52

tells me I have to come get E.B. because I am the only one that E.B. will talk to at that
point.

13 of 52

MOTHER'S ATTEMPT TO ALIENATE E.B. FROM THE FATHER
On the night of the break up E.B. asked that we alternated weeks for time
being. Deanne refused at first telling me that her lawyer said she can take E.B. and
there is nothing I can do about it and she wouldn't even tell me where she was going to
live, I refused to let Deanne leave with E.B. unless she told me where she was living
and that she agreed to the every other week, or we get the police involved.
During the time before the first court hearing Deanne made every attempt to
keep me from talking or seeing E.B.. Deanne would take E.B.'s phone away and when I
would try calling E.B. Deanne would text me saying she is grounded and I can't talk to
her. This grounding from the phone still goes on today over 2 years later.
Deanne would refuse my time with E.B., Deanne tried to have me arrested at
anyplace I went to see E.B., gymnastics, doctors appointments, school, everything.
Deanne would tell everyone that I am there to harm or kill her so they would call the
police and the police would tell me that Deanne told them I was threatening her when I
had no contact with her at the places. Because of this E.B. now hates her mother to the
point that E.B. never wants to see her mother again.
The problem got to the point that E.B. didn't want to go back to her mother's
and asked if she could just live with me and since there was no court order I said yes,
this was about 6 weeks before the preliminary hearing.
E.B. tells me that her mother and family are constantly telling her that I am a
horrible person and keep trying to convince E.B. that she shouldn't ever see me again.
E.B. hates being around Deanne and her family because of this and every week she
keeps saying when she gets her drivers license she will never go back to moms again.
E.B. should not have to suffer another 4 years to get away from her abusive mother.

14 of 52

THE COURTS BIAS TOWARD THE MOTHER
The first hearing we had for temporary custody orders Deanne's lawyer made
accusations that I was telling E.B. that her mother is a horrible person and that I was
showing E.B. all the texts between me and Deanne. Judge Erin McIntyre became upset
at me and when I tried to say something I was told that I was not allowed to speak. The
Judge gave full custody to Deanne with child support of $1122 a month and I could only
see E.B. every other weekend and Wednesday nights for dinner. This is what fathers
got back in the 50's, it is 2020 and fathers care about their children just as much as
mothers.
E.B. has made it clear to everyone that she does not want to live with her
mother and has on multiple occasions told me and her mother "when I turn 18 mama
will never see me" this is because of the verbal abuse that Deanne has done to her over
the years.

This is shown in the counselor's reports with E.B. that the GAL, Lucinda

Hopkins, refused to read and the courts would not allow to be submitted as evidence.
E.B. wrote that she doesn't not want to live with her mother in her journals and I have
voice recordings of E.B. telling her mother that she doesn't want to live with her, none of
these were allowed as evidence in the trial. The GAL report showed nothing about the
abuse of E.B., E.B. told the GAL that her mother threatens her and verbally assaults her
telling E.B. "I hate you", "your a little bitch" and the GAL didn't report any of the mother's
abuse in her reports to the courts.
Deanne violates the courts orders weekly and I filed motions to have this
stopped and the courts never responded to any of them. Deanne would put in motions
and get a hearing within weeks, Deanne wouldn't even show up for the hearing and
judge McIntyre would still give Deanne what she wanted and do nothing about Deanne's
harassment to me. Deanne has been seen by the neighbors trying to break into my
house, she has tried to forcibly take E.B. from my house after school and she has even
gone so far as to text me and say she is going through my mail and the courts do
nothing about this. I recently filed for an Exparte because of Deanne's harassment and
15 of 52

the court said no, the case is closed.
During the trial judge McIntyre refused to accept any evidence that I tried
presenting to prove abuse. The court even ignored the fact that the mother was forcibly
drugging E.B. on multiple occasions and that E.B. spent that night in the hospital
because of it. Deanne during the trial offered no evidence and just kept saying that I
was threatening her every time we swapped E.B.. I offered the judge video evidence of
all the meets for the past year and she refused to accept the evidence and told me she
found it disturbing that I video tapped all the meets.
Judge McIntyre awarded Deanne everything she wanted even though Deanne
did nothing more than tell the judge that I keep threaten her when I never have and
Deanne even stated that in her brief for the New Hampshire Supreme Court appeal that
I never threaten her.

Deanne was lying claiming that I threaten her to generate

sympathy and it worked.
The next step was to file an appeal with the New Hampshire Supreme Court. I
filed for the appeal and was refused and the judge cited for precedence a case where
the father raped and molested his daughter and threatened to harm her if she told
anyone. NEVER during any of this did anyone say I molested E.B. EVER. I requested
clarification on how this sets precedence for my case to refuse my appeal and the judge
replied only with "the father was acquitted" and denied my request for an appeal. I have
made every attempt to have Judge McIntyre's decision changed because E.B. doesn't
want to live with her mother and every week E.B. asks if she can just live with me so
this is why I am appealing to the US Supreme Court.

"*16 of 52

REASONS FOR GRANTING THE CASE
1. E.B. does not want to live with her mother because of the constant verbal abuse
and threats of physical violence from her mother.
2. E.B. does not want to live with her mother because of her mother drinking
problem.
3. E.B. has stated that she can not sleep at her mothers because she is afraid of
her mother and where they live.
4. E.B. on multiple occasions has refused to go to her mothers because of the
verbal abuse and every time she has to go to her mother's she tells me she
doesn't want to go and that she hates it there.
5. E.B. has stated over and over that when she is old enough to drive she will never
return to her mothers.

17 of 52

WHY SUPREME COURT JURISTION SHOULD BE INVOLKED
1. Judge Erin McIntyre refused to review any evidence I tried to present to prove
that Deanne Lyons was lying to the court. I have video evidence of the incidents
that Deanne Lyons claim that I am threatening her and Judge McIntyre refused to
accept the videos.
2. When Deanne Lyons was asked to produce any evidence for any of her
accusations she could not present any evidence but Judge McIntyre accepted
her word as fact on everything despite that I have evidence otherwise.
3. Deanne Lyons has continued to violate the court orders and continues to harass
me to the point that on October 6, 2020 New Hampshire Superior Court awarded
me a restraining order to keep Deanne Lyons off my property and not to contact
me. I have been trying for years for Judge McIntyre to enforce her own court
order for Deanne Lyons to keep off my property but Judge McIntyre refused to
enforce it.
4. Deanne lyons continues to harass me at every doctor or any heath related visits
for E.B. by going to the heath provider and telling them I have lots of guns and I
am on my way to harm her and then the heath provider calls the police. Deanne
tells the police I am trying to kill her or harm her to try and have me arrested. I
have video of these incidents and again Judge McIntyre refuses to review the
evidence and actually became upset at me that I video tape everything.
5. On September 3, 2020 Deanne Lyons had the dentist office call the police on me
again to again try and have me arrested in front of E.B.. Deanne's attempts to
have me arrested in front of E.B. at every heath visit is causing extreme mental
anguish and Judge McIntyre refuses to do anything about it, she even told me in
a hearing on October 7, 2020 that I don't need to be at these visits that I can
6 of 52

check the results online instead of addressing the fact that Deanne should let me
be at the visits like the court order says.
6. Because of Deanne Lyons actions now E.B. has made comments about harming
herself and is currently being investigated by DCYF agent Heather Fougere.
7. During Heather Fougere visit to my house to see E.B., Heather told me that
Deanne Lyons had told her that I had tons of guns and that I am angry and
violent all the time like she does at the heather providers. Heather was terrified
to come visit my house because of Deanne's lies, but being and experienced
DCYF person Heather decided to pull all the police reports and found no
evidence that I was violent and was happy to see that Deanne was wrong.
8. Heather after speaking with E.B. told me that E.B. said that she is afraid of her
mother and lives in fear at her mothers house. I have been telling the courts this
for over 2 years and I have evidence of it but again Judge McIntyre refuses to
review any evidence I present which means my daughter E.B. is living in fear
because the courts in New Hampshire favor the mother even though I have proof
of abuse.
9. I have tried to appeal Judge McIntyre's decision with the New Hampshire
Supreme Court but it was refused and they cited as precedence a case to which
the father raped and molested his daughter and threatened to kill her. I have no
clue what how that case relates to my case and the courts refuse to answer me
to the reason for my denial other than the case they refer to.
10. E.B. wants to be heard, she wants to live with her father, the courts in New
Hampshire refuse to listen to a 13 year old girl because I am asking for the courts
to hear her, if the mother asked they would listen to the child I know this from
people I know who their children were heard by the courts. The mother does
what ever she can to keep E.B. silent because E.B. has made it clear to her
mother that when she is old enough to drive her mother will never see her again.
11. If stopping the suffering of my child is not good enough reason that I don't know
what else is. Please let E.B. have a say in her future.
7 of 52

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted
November 29, 2020

Wayne Boucher
65 Grove Ave
Manchester, NH 03109

§
■

=

=

~
:

COMMISSION
's
EXPIRES
JUNE 29, ^5

a

18 of 52

5.
S
^

